Audit Report




OIG-11-110
RECOVERY ACT: Audit of Pyron Wind Farm LLC Payment Under
1603 Program
September 28, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
 
Contents



Audit Report

  Results in Brief ............................................................................................. 1

  Background ................................................................................................. 2

  Objectives, Scope, and Methodology .............................................................. 3

  Audit Results ............................................................................................... 4


Appendices

  Appendix     1:      Pyron Wind Farm LLC’s Response............................................. 8
  Appendix     2:      Management’s Response ........................................................ 13
  Appendix     3:      Major Contributors to This Report ............................................15
  Appendix     4:      Report Distribution ................................................................. 16

Abbreviations

  Energy               Department of Energy
  E.ON                 E.ON Climate and Renewables North America
  IRS                  Internal Revenue Service
  NREL                 National Renewable Energy Laboratory
  OFAS                 Office of the Fiscal Assistant Secretary
  OIG                  Office of Inspector General
  Pyron                Pyron Wind Farm, LLC
  Recovery Act         American Recovery and Reinvestment Act of 2009
  Treasury             Department of the Treasury
  Treas. Reg.          Treasury Regulation




                       Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)                Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                     Audit
OIG
The Department of the Treasury
                                                                                     Report
Office of Inspector General




                      September 28, 2011

                      Richard L. Gregg
                      Fiscal Assistant Secretary


                      As part of our ongoing audit coverage of the Department of the
                      Treasury’s (Treasury) 1603 Program – Payments for Specified
                      Energy Property in Lieu of Tax Credits (1603 Program) 1 authorized
                      by the American Recovery and Reinvestment Act of 2009
                      (Recovery Act), 2 we are conducting audits of selected award
                      recipients. In this regard, we have audited the award made to
                      Pyron Wind, LLC (Pyron) for a wind farm near Roscoe, Texas.
                      Pyron submitted its claim for payment in lieu of tax credit in the
                      amount of $121,903,306 on September 13, 2009, and was
                      awarded that amount by Treasury on September 21, 2009. Our
                      audit objectives were to assess the eligibility and accuracy of that
                      award by determining whether (1) the property existed, (2) the
                      property was placed into service during the eligible timeframe, and
                      (3) the award amount was appropriate.


Results in Brief
                      We verified that the subject property described by Pyron in its
                      1603 Program application does exist and that it was placed in
                      service March 1, 2009, which was within the eligible timeframe.
                      We also concluded that the award amount was appropriate after

1
  Treasury’s Office of the Fiscal Assistant Secretary (OFAS) administers this program.
2
  Pub. L. No. 111-5, 123 Stat. 115 (Feb. 17, 2009). Under section 1603 of the Recovery Act, Treasury
makes grants (payments) to eligible persons who place in service specified energy property and apply
for such payments. The purpose of the payment is to reimburse eligible applicants for a portion of the
expense of such property and is made in lieu of tax credits that could have been potentially claimed by
the awardees.


                      Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)       Page 1
                       management provided clarification of certain applicable tax
                       provisions through its response to this draft audit report. In the
                       draft report, we originally questioned $1,199,804 of Pyron’s
                       $406,344,352 reported cost basis ($359,941 of the award
                       amount) which related to spare parts and a spare parts data
                       collection system. At the time we issued our draft report, we
                       believed these costs were ineligible based on our initial
                       interpretation of those applicable tax provisions.

                       After reviewing management’s response, which clarified the
                       applicable tax provisions governing spare parts, we no longer
                       question their eligibility under the 1603 Program and make no
                       related recommendations for Treasury. Pyron’s and Treasury’s
                       management responses to our draft audit report are provided in
                       appendices 1 and 2, respectively.

Background
                       Eligibility Under the 1603 Program

                       Applicants are eligible for a 1603 Program award if a specified
                       energy property is placed in service during calendar years 2009,
                       2010, or 2011, 3 and the amount awarded is in accordance with
                       applicable provisions of the Internal Revenue Code of 1986 for
                       determining cost basis. Under the 1603 Program, applicants submit
                       an application to Treasury that reports the total eligible cost basis
                       of a specified energy property placed in service. If approved, award
                       amounts are based on a percent of that eligible cost basis. For the
                       type of property claimed by Pyron, the percentage of cost basis
                       eligible for award is 30 percent. According to OFAS program
                       guidance, the cost basis of the subject property is determined in
                       accordance with the general rules for determining the cost basis of
                       property for federal income tax purposes. Specifically, for this type
                       of subject property, applicants follow the capitalization procedures




3
 Section 707 of the “Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
2010,” extended Treasury’s 1603 Program for 1 year. To be eligible, a property must be placed in
service in 2009, 2010, or 2011 or placed in service after 2011 but only if construction of the property
began during 2009, 2010, or 2011. The application deadline was extended to September 30, 2012.


                       Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)       Page 2
                       found in Treas. Reg. §1.263A-1, “Uniform Capitalization of
                       Costs.” 4

                       Pyron

                       Pyron is a 249 megawatt wind farm located near Roscoe, Texas.
                       Pyron uses 166 General Electric 1.5SLE wind turbines; each
                       1.5SLE turbine has a rated capacity of 1.5 megawatts. Pyron’s
                       parent company is E.ON Climate and Renewables North America
                       (E.ON) located in Chicago, Illinois, which also manages the Pyron
                       wind farm.


Objectives, Scope, and Methodology
                       To assess the eligibility and accuracy of the award made to Pyron
                       under the 1603 Program, we determined whether (1) the property
                       existed, (2) the property was placed into service during the eligible
                       timeframe, and (3) the award amount was appropriate.

                       In performing our work, we visited Pyron’s parent company, E.ON
                       in Chicago, Illinois; interviewed key personnel of E.ON and key
                       personnel associated with its independent public accountant (IPA).
                       We also reviewed the application, production reports, invoices,
                       contracts and other documents provided to the Department of
                       Energy’s (Energy) National Renewable Energy Laboratory (NREL) 5
                       to support the property’s existence, its placed in service date, and
                       the costs claimed by Pyron. We also obtained clarification from
                       OFAS and Internal Revenue Service (IRS) personnel on eligible
                       costs under the program. We performed our work between April
                       and May 2011.

                       Our audit was conducted in accordance with generally accepted
                       government auditing standards for performance audits. Those
                       standards require that we plan and perform an audit to obtain

4
  Treas. Reg.§1.263A-1(a)(3)(ii), Property produced: “Taxpayers that produce real property and tangible
personal property (producers) must capitalize all the direct costs of producing the property and the
property's properly allocable share of indirect costs (described in paragraphs (e)(2)(i) and (3) of this
section), regardless of whether the property is sold or used in the taxpayer's trade or business.”.
5
  NREL is a national laboratory of the Department of Energy. Under an interagency agreement between
Treasury and the Department of Energy, NREL performs the technical review of 1603 Program
applications and advises Treasury on award decisions.


                       Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)       Page 3
                       sufficient, appropriate evidence to provide a reasonable basis for
                       our findings and conclusions based on our audit objectives. We
                       believe that the evidence obtained provides a reasonable basis for
                       our findings and conclusions based on our audit objectives.


Audit Results
                       Pyron submitted a cost segregation and Section 1603 payment
                       eligibility analysis 6 to Treasury that was prepared by E.ON’s IPA on
                       behalf of Pyron. The cost segregation analysis included the
                       property’s classification for depreciation purposes and all costs that
                       made up its cost basis. The Section 1603 payment eligibility
                       analysis identified $406,344,352 of costs in the property’s cost
                       basis that Pyron believed were eligible for payment under
                       Treasury’s 1603 Program.

                       In our draft audit report, we originally questioned the
                       appropriateness of Pyron’s claimed costs of $1,157,130 for spare
                       parts and $42,674 for a spare parts data collection in its cost basis
                       that resulted in $359,941 of its 1603 Program award. These items
                       were purchased from late March 2009 through July 2009,
                       subsequent to placing the subject property in service on March 1,
                       2009. 7 After receiving clarification through Treasury management’s
                       response on the tax provisions governing spare parts, we no longer
                       question the eligibility of spare parts under the 1603 Program.

                       Initially, it was our understanding that to be included in the cost
                       basis, as specified in Treas. Reg. §1.263A-1, the parts must be
                       necessary to produce the property. According to an IRS attorney
                       we spoke to, spare parts and energy property are two separate
                       assets with separate cost bases, and there is no justification in tax
                       law for classifying these two assets as the same unit. As a result,
                       the costs of the spare parts should not be included as part of
                       Pyron’s cost basis and are therefore questioned. Similarly, the cost

6
  The cost segregation and Section 1603 payment analysis was prepared for the purposes of classifying
property for Federal income tax depreciation or amortization purposes and determining the eligibility for
a cash grant in lieu of tax credit provided by Section 1603 of the American Recovery and Reinvestment
Act of 2009. The analysis included reviews of certain project cost data and engineering drawings
provided by E.ON and discussions with management of E.ON.
7
  Treasury Program Guidance, IV. Property and Payments Eligibility, A. Placed in Service…”Placed in
service means that the property is ready and available for its specific use.”


                       Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)        Page 4
                       of the spare parts data collection system was not something that
                       was necessary to place the subject property in service and is
                       therefore questioned as well.

                       After reviewing our draft report, Pyron management did not concur
                       with our assessment of the ineligibility of spare parts. In its
                       response, Pyron stated that spare parts should be considered
                       “specified energy property” as defined in Treasury’s 1603 Program
                       Guidance 8 and in Treas. Reg. §1.48-9(e)(1), and therefore, qualify
                       for inclusion in the property’s cost basis. In addition to qualifying
                       as energy property, spare parts are considered parts related to the
                       functioning of the integrated wind farm, integral to the overall
                       facility, and should not be viewed as a separate asset. Lastly,
                       Pyron management believes that spare parts meet the definition of
                       repairs and maintenance as defined by Treas. Reg. 1.263A-
                       1(e)(3)(ii)(O), and that all spare parts included in the 1603 cost
                       basis also meet the definition of “Emergency Spare Parts” as
                       defined by Rev. Rul. 81-185. See appendix 1 for Pyron’s response.

                       Based on our evaluation of Pyron’s response, we maintained that
                       spare parts and the subject energy property were two separate and
                       distinct assets with separate cost bases and different “placed in
                       service” dates. We believed at the time that the spare parts in
                       question were not an integral part of the wind farm and should not
                       have been considered specified energy property under Treasury’s
                       1603 Program. We based this on our interpretation of Rev. Rul. 81-
                       185 which concludes that standby emergency spare parts are to be
                       capitalized and depreciated when the parts are acquired and set
                       aside as emergency replacement parts. Emergency spare parts are
                       considered placed in service when they are placed in a condition or
                       state of readiness and availability for an assigned function. Placed-
                       in-service is addressed in Treas. Reg. §1.46-3(d)(2) 9 which makes
                       the distinction between the in service dates of materials and parts
                       acquired for use in the construction of equipment and parts used as
                       replacements to avoid time loss. In Pyron’s case, the spare parts in

8
  Treasury’s Payments for Specified Energy Property in Lieu of Tax Credits under the American
Recovery and Reinvestment Act of 2009 Program Guidance, IV. Property and Payment Eligibility Part I.
Types of Property
9
  Treas. Reg. §1.46-3(d) establishes the placed in service rules for qualified investment property for
investment tax purposes. Treas. Reg. §1.167(a)-11(e)(1)(i) references the provisions of Treas. Reg.
1.46-3(d)(1)(ii) and (d)(2) to determine the date property is placed in service.


                       Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)      Page 5
question were not in a condition or a state of readiness and
availability at the time of construction. Instead, they were
considered replacements to avoid time loss since they were
purchased after placing the subject property in service on March 1,
2009. Therefore, we believed that they should have been
capitalized as separate depreciable assets.

Furthermore, Pyron’s spare parts were not necessary to produce
the subject property nor were they indirect repair and maintenance
costs, as outlined in Treas. Reg.§1.263A-1, and they are not
functionally interdependent components of the subject property.
According to Treasury’s Program Guidance, components of a larger
property are a single unit if the components are functionally
interdependent. Components are functionally interdependent if the
placing in service of each component is dependent on the placing
in service of the other component. Pyron’s questioned spare parts
were purchased, ready and available for their intended use after the
subject property was placed in service and commercial operations
had begun. Of the costs questioned, $1,157,130 in spare parts
was purchased on July 27, 2009. Accordingly, the spare parts
were not functionally interdependent components of the subject
property and could not be used to directly or indirectly produce the
property already in service.

Therefore, our initial conclusion was that the spare parts in
question were not necessary to place the subject property in
service since they were purchased after commencing operations. In
its response to our draft audit report, Treasury management
provided a detailed clarification of the tax guidance on which we
based our evaluation of the spare parts. Management concluded
that the costs of the spare parts in question were eligible because
they were a part of a qualified facility under IRC §45 and were in
service at the time of the Pyron’s 1603 Program application. See
appendix 2 for Treasury’s management response.

After receiving clarification on the tax provisions governing spare
parts, we no longer question the eligibility of Pyron’s spare parts.




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 6
                                ******

The information in this report should not be used for purposes
other than what was originally intended without prior consultation
with the Office of Inspector General regarding its applicability.
Information contained in this report may be confidential. The
restrictions of 18 U.S.C. §1905 should be considered before the
information is released to the public. We appreciate the courtesies
and cooperation provided to our staff during the audit. If you wish
to discuss this report, you may contact me at (202) 927-5400 or
Donna Joseph, Audit Director, at (202) 927-5784. Appendix 3 lists
the major contributors to this report.

/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 7
THIS PAGE INTENTIONALLY LEFT BLANK
Appendix 1
Pyron Wind Farm LLC’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 8
Appendix 1
Pyron Wind Farm LLC’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 9
Appendix 1
Pyron Wind Farm LLC’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 10
Appendix 1
Pyron Wind Farm LLC’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 11
Appendix 1
Pyron Wind Farm LLC’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 12
Appendix 2
Management’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 13
Appendix 2
Management’s Response




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 14
Appendix 3
Major Contributors To This Report


Donna Joseph, Director
Cynthia Milanez, Audit Manager
Erica Wardley, Audit Manager
James Hodge, Auditor-in-Charge
Cheryl Sroufe, Auditor
Lisa Carter, Auditor
Roberta Wright, Auditor
Myung Han, Referencer
Theresa Cameron, Referencer




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 15
Appendix 4
Report Distribution


Department of the Treasury

   Assistant Secretary for Management of the Treasury,
      Chief Financial Officer, and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Chief Financial Officer
   Director, Office of Accounting and Internal Controls
   Deputy Director, Office of Performance Budgeting
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

E.ON Climate and Renewables North America

   Vice President, Investment Analysis




Audit of Pyron Wind Farm LLC Payment Under 1603 Program (OIG-11-110)   Page 16
